        +?-'




 Department of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERAL





MEDICAL MAPRACTCE INSURACE

                         AN TH

 COMMUN HEALTH CENTRS

           A MAAGEMNT ADVISORY REPORT




           " 5.RVr('t





                          Richard P. Kusserow
                          INSPECTOR GENERAL
         -l1f"-JIa
                             NOVEMBER 1991
                         OFFCE OF INSPECfOR GENRA

The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95- 452, as
amended. is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations. and
inspections conducted by three OIG operating components: the Offce of Audit Servces. the
Office of Investigations, and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program. and management problems. and recommends courses to
correct them.

                             OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse. and
mismanagement and to promote economy and efficiency throughout the Department.

                             OFFICE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                   OFFICE OF EVALUATION AN INSPECIONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department.
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate, and up- to- date information on the efficiem.:y. vulnerability.
and effectiveness of departmental programs.

This report was prepared in the Boston Regional Offce under the direction of Regional
Inspector General Mark R. Yessian, Ph. D.. and Deputy Regional Inspector General \-fartha
K vaal. Project staff included:





Region I                                                                      IIcadquarters
Dana L. \'iller.   Projecl Leader                                             \'faruta Zitans
Timothy J. Corbett
       ,,




 Department of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERAL





MEDICAL MAPRACTCE INSURACE

                              AN TH

 COMMUNITY HEALTH CENTERS

       A MAAGEMENT ADVISORY REPORT




                   5HV/("ts


                               Richard P. Kusserow
                               INSPECfOR GENERAL
            .I.-llfi--J1Q
                                   OEI01- 91- 01550
                          INTRODUCTION

PUROSE
The purpose of this report is to summarize current concerns. and available information
regarding the costs of medical malpractice insurance at federally funded community and
migrant health centers.

BACKGROUN
This report was prepared in response to a request from Kevin                  Assistant
                                                                      E. Moley,
Secretary for Management and Budget , for information on medical malpractice insurance
costs at community and migrant health centers.

Five hundred and fifty community and migrant health center grantees receive funding
through Sections 329 and 330 of the Public Health Servce Act. These centers provide
primary health servces in medically underserved areas throughout the' country.

Until the early 1980' federally employed National Health Servce Corps (NHSC)
members comprised a significant portion of the centers ' medical staffs. As Federal
employees , members were covered for liability under the Federal Tort Claims Act.

Budget cuts and policy changes in the NHSC over the past decade have increased centers
malpractice insurance expenses in two ways. First , the number of corps           providers
available for service has been cut considerably. Consequently, centers have been forced
to hire an increasing percentage of non-corps providers. Second , the Public Health

Servce has required that the majority of remaining corps members be employed directly
by centers , rather than by the Federal government. As a result , the cost of medical
malpractice insurance-- for both directly hired corps members and the increased number
of non-corps providers-- has been shifted to the centers.

At the same time , medical malpractice insurance costs nationwide have risen substantially.
Premiums for obstetricians , for example , rose by as much as 300 percent between 1982
and 1987. In FY 1989 , centers spent approximately $50 milion-- l0 percent of their total
Federal grant funding, or 4.4 percent of total revenues--on malpractice insurance
premiums? Alternative insurance approaches might reduce costs , and thereby result in
an increase in the amount of funding available for direct services to center clients.

METHODOLOY
To gather information for this report , we spoke with staff at several congressional offices
national and regional primary care associations , Federal agencies , and advocacy groups.
We reviewed published reports and proposed legislation from these offices , and examined
data from a recent OIG survey (see appendix A).
                                    FINDINGS

mE COST OF MEDICA MARAcrCE INSURACE PREMIUS                                 LIIT
SERVICES AT CENTRS.

The rising cost of medical malpractice insurance-- particularly for obstetrical care-- has
been identified as an increasingly serious financial burden , which limits the provision
of servces at community and migrant health centers.

In response to a June 1991      Office of Inspector General survey:


       56 percent of centers cited the high cost of medical malpractice insurance as a
       factor that significantly limits their abilty to provide pregnancy care;

       27 percent of centers indicated that the cost of medical malpractice insurance
       has become a more serious limitation to care since 1988; and

       9 rural centers reported that they have been forced to omit or discontinue
       obstetrical servces entirely because of problems related to malpractice
       insurance.

Research by the Institute of Medicine supports these findings. s Centers have found
increasingly difficult to recruit and retain staff, because the limited funds that might
have been spent on salaries are being spent instead on insurance premiums. Centers
that contract with providers for care have been unable to meet the rising hourly wages
that are necessary to support these physicians '   personal malpractice insurance
premiums. Some centers have been unable to obtain coverage at any cost.


TO DATE, THE PUBLIC HEAm SERVICE HAS NOT ROUINELY COLLECTD
DATA FROM CENTRS ON mE NUMBER AN DOLLA VALUE OF MEDICA
MARAcrCE CLAS AGAINST THEM.
While the Public Health Service (PHS) has required centers to report data on the
costs of premiums as part of the annual center grant application process , it has not
collected information on claims experience. Thus , it has not compiled comprehensive
data on the centers '   claims histories.

Beginning in fiscal year 1992 , the PHS wil require centers to report total claims paid
in their annual applications. Only current year information will be collected.

The PHS and the General Accounting Office (GAO) have recently begun a
comprehensive study of the premiums and claims experience of the centers over the
past five years. They intend to survey all centers regarding their premiums and claims
histories. A GAO project update on this effort was published in May 1991; a final
GAO report is expected in spring 1992.


MOST CENTRS FOR WHICH DATA HAVE BEEN COLLCT AR PAYING
DISPROPORTIONATELY HIGH MEDICA MARAcrCE INSURCE
PREIUS.
Data from those centers that have been studied indicate     that successful   medical
malpractice claims against them represent roughly 10 percent of the costs of premiums
paid. By contrast ,   medical malpractice claims paid on behalf of all providers
nationally represent 56 percent of premiums paid. Exlanations for the smaller
amount paid on behalf of center providers might include:

       a smaller average number of claims brought against center providers than
       against non-center providers; 7 and/or

       a lower average amount paid in successful     claims against center providers.


Current estimates of the number and dollar value of center claims are based , however
on limited information. In the past five years , several studies have attempted to
collect claims data (see appendix B). These studies are limited by small sample sizes
low response rates , and limited focus. Their findings are outlined below.


   Seera regional priar    cae asocations have conducted studies during the past
year. Although limited in geographic scope , these provide the most recent and most
comprehensive data currently available on centers ' premiums and claims histories. All
of these studies have demonstrated that centers have paid high premiums relative
both the low number of claims fied against them and the small      size of successful
claims paid.

       The Northwest Regional Priar Cae                ation reported in July 1991
       survey responses from 28 of the 31 community and migrant health centers in
       Alaska , Oregon , Idaho , and Washington. Between 1988 and 1990 , $4 milion
       was spent on malpractice insurance premiums. Four claims had been paid in
       the total amount of $15 000 , against initial claims of $55 000. Fo ur claims were
       stil pending for $215 500. If all pending claims were ultimately paid in full
       total claims paid would represent 6 percent of annual premiums.

       The Virgia Priar Cae          Asocation has reported   that the 17 centers in    that
       state have paid approximately $1.1 milion in professional liability premiums
       over the past 7 years. Four claims have been filed during that time , and none
       has been paid.

       The Asocation for Utah Community Heath has reported that the
-5 .




                   5 community health centers in that state have spent approximately $100 00 on
                   malpractice insurance premiums in 1991. No claims have ever been paid , and
                   no claims are pending.



                   The Rhode Island Heath Center      Astion has reported that the
                   4 community health centers in that state have spent $351 00 on malpractice
                   premiums in 1991. In their entire history, the centers have paid less than
                   $25 00 in claims. If the $25 000 had been paid in 1991 , it would represent
                   7 percent of annual premiums. No claims are pending.

                   The Conneccut Prar Cae          Astion      has reported that 10 of the
                   14 centers in that state responded to a recent survey. These have paid
                   $590, 00 in premiums in 1991. In the history of the centers , only 5 claims have
                   ever been fied; only one of these was paid , in the amount of $35 00. This
                   claim represents 6 percent of 1991 premiums.


         The National Asation of Community Heath Centers released two reports in the
       mid- 1980' s on its members ' medical malpractice premiums and claims experience.
       The data they present are both limited and dated.

       The Medical Malpractice Claims Experience of Community and Migrant Health Centers
       A Comparative         was released in 1986. This report was based on responses from
                                  Stuy,

       41 percent of all centers to a survey on claims experience , and responses from
       32 percent of all centers to a survey on risk management/access to coverage.

                   A total of 95 claims had been brought against 67 (26 percent) of the
                   respondents during their entire operating histories. Of the resolved cases
                   46 percent had been found for the plaintiff. No dollar amounts for the claims
                   paid were provided.

                   The study compared the rate of claims   against center physicians ,   by specialty, to
                   national averages obtained from physician organizations.    The data suggested
                   that claims were fied against center providers   less frequently than against non-
                   center providers.



       Risk Financing Alternatives Study, 
   prepared by Tilinghast , an independent actuarial
       consultant , was released in 1987.      This report was based on survey responses      from
       18 percent of all centers.

                   In 1986 , responding centers paid $3. 5 milion in professional liability premiums;
                   their paid claims amounted to $71 000 (approximately 2 percent of premiums).

                   The study concluded that this ratio of claims to premiums was far lower than
                   the industry average.

  The Heath Resurce and                 Administrtion
                                      Servce                    (HRSA) published         Claims of
Medical Injur, Filed under the Federal Tort Claims Act against               the Indian Health Service
and the National Health Service Corps,
                                    between FY 1980 and FY     1986 , in 1987. This
study reviewed combined data on the claims against federally employed providers in
both community health center and Indian Health Servce settings. These data were
available because these providers were covered for malpractice liabilty under the
Federal Tort Claims Act. This study did not examine the claims histories of non-
federally employed community health center providers.

            The report found that 374 claims had been brought against federally employed
                                                              Of these , 12 percent had
            providers in both settings during the 7 year period.
            been approved and paid; 72 percent had been denied. Suits had resulted
            from 59 percent of the denied claims. Fort-one percent of the suits were
            either settled or found for the plaintiff.

            Recorded payments for claims and suits       totaled $6.   8 milion. The report did
            not offer any comparative or contextual background for understanding the
            significance of this sum.

   David Smith Donna Denno, and Dana Hughes of the Bureau of Heath Cae
Deliery and Asistace; and Saa Rosnbaum of the Chdren s Defens Fund have
produced a draft report entitled 
        Community-Based Experience with the Federal Tort
Claims Act and Malpractice. 
        This report presents a   comparative analysis of the FY
1980- 1986 data from the HRSA report on NHSC and IHS                    physician claims data; 1985
data from the American Medical Association on private physician premiums and
claims; and data from a GAO report on the costs of private sector medical
malpractice claims closed in 1984.



            The report estimates that the cost of commercial insurance for these federally
           employed providers would have been between five and ten times greater than
           was the cost incurred by covering them under the Federal Tort Claims Act.

     The Intitute of Medicie (10M) published " Obstetrical Care for Low- Income
Women: The Effects of Medical Malpractice on Community Health Centers " as part
ofMedical Professional Liabilty and the Delivery of Obstetrcal Care in 1989. This
report was based on a survey of approximately 10 percent of all centers.

            Fourteen percent of the respondents reported that claims had been filed
            against them at some point in their operating histories. No information was
            provided on either the number of claim       paid or pending, or the dollar values
            of claims.



            The report concluded that medical malpractice costs adversely           affected centers
            provision of obstetrical services.
These studies consistently indicate that responding centers have paid high malpractice
premiums , that they have had few claims against them , and that the monetary values
of these claims have been relatively small.

The data these studies present , however , may not be representative of premiums and
claims experiences at all centers.   The insurance industry requires comprehensive
national data as a basis for setting premiums.


THREE ALTERNTI APPROACHES TO INSURING CENTR PROVIERS
BEING PURUE.

   Coverage under a risk- purchase group policy
   Establishment of a risk-retention group to self- insure
   Exanded coverage       under the Federal Tort Claims Act   (flCA)

   COVEGE UNER A RISK-PURCHE GROUP POUCY:
        Centers would band together to obta coerage at reduce rates from
        commercial inurers.


The National Association of Community Health Centers (NACHC) established a risk-
purchase group, open to all centers nationally. This group has encountered several
difficulties: No carriers will provide obstetrical coverage , premium reductions have
been smaller than expected , and participation has required an increase in
administrative work for the centers. Partially as a result of these limitations , few
centers have participated.

The Virginia Primary Care Association also established a risk- purchase group for the
17 centers in that state in 1984. The Virginia group reports that its insurance carrier
granted a 10. 8 percent group premium discount , which saved the participating centers
$15   412 in 1991.



   ESTABLISHMNT OF A RISK-RENTON GROUP TO SELF- INSUR:

        Centers would self-inure   by developing a capita         out of which succful
        liabilty clai.   agait the centers and their provders would be pad.
Two self- insurance   proposals have been introduced during the   101st Congress.

One bil would establish a federally capitalized and administered risk retention group
for the community and migrant health centers (S. 815, introduced by Senator Hank
Brown (R- CO)). This pool would be capitalized at $80 milion through the transfer of
funds from the centers ' Federal grant appropriations. Each center s contribution to
the capital pool would be based upon its risk exposure (including the numbers of
patients served , tyes of providers , and tyes of care provided).

The Public Health Servce would be required to review the pool at least once every
two years. If claims payments were lower than expected, the excess funds would be
returned to the centers as a supplement to their annual grant awards. If claims
payments were high , and inadequate funds remained to cover potential claims
additional sums would be transferred to the pool from the centers ' grant
appropriations.

Afer five years , three independent evaluations of the fund and the centers ' claims
history would be made. If claims continued to be as low as anticipated, then the
amount of capital in the fund would be reduced , and the excess sum would be
returned to the centers as part of their grant appropriation.

A second bil calls upon the centers to form an independent national risk-retention
group to provide professional liabilty coverage (S. 489; H. R. 1004 , introduced by
Senator Orrn Hatch and Representative Nancy Johnson)P Funds would be
appropriated to establish this risk-retention group. If independent insurance experts
determined that the operation of the group would result in an increase in the amount
of funds available for use by the centers , then the Department of Health and Human
Servces would capitalize the group.

Advocates of self insurance argue that, by holding centers responsible for their
malpractice claims , this approach gives centers a financial incentive to maintain the
quality of their care. Further , it is anticipated that self- insurance would result in a
substantial cost savings to the centers.



Centers have long claimed that a self- insurance program is not feasible because they
cannot afford to capitalize the pool , and have been prohibited from using Federal
grant funds for capitalization purposes.


   EXPANED COVERAGE UNER TH FEDERA TORT                                   CLS ACf:
       In ca                medica provders offerig servces at federa fuded
                  of litigation,   all

       communty and migrant heath centers would be treated as Federa employees.
       They would be defended by the Deparent of Justice, and clai would be
       paid out of the U. S. Treasury.

A bil to this effect has been introduced in the House (H. R.     2239 ,   the Federally
Assisted Health Clinics Legal Protection Act of 1991 ,   sponsored by Representative
Ron Wyden (D- OR )).

Supporters contend that tort reform represents a return to the original program policy,
under which a large percentage of center providers were federally employed National
Health Servce Corps members , and thereby covered by the Federal Tort Claims Act.
They further argue that , if the numbers and amounts of claims are as low as
anticipated , tort reform would create a significant cost savings , not merely a cost shift.
Federal tort reform is the preferred option of the National Association of Community
Health Centers

                  I4 and has been supported by the Children s Defense Fund and the
Institute of Medicine.

Others have described tort reform as a poor strategy for both risk management and
quality assurance. By shifting liabilty away from the centers , the measure would
remove the centers ' economic incentive to ensure quality of care. It is also argued
                                    inadequate to demonstrate the need fore-or
that the data presently available are
economy of-- this proposed reform in tort liabilty coverage.

The Deparment of Justice maintains that the Federal Government cannot accept
liabilty for the actions of individuals who are not Federal employees and therefore are
not subject to direct Federal supervision.

                                           16 There are further concerns that this
move would set a precedent whereby other Federal grant recipients might seek
Federal coverage for their employees.

Congressional staffers have suggested that this plan is not in the best interests of
either community health center providers or patients. Providers would object to being
defended by assigned Justice Department attorneys , who might lack expertise in
malpractice issues. Community health center patients who have suffered legitimate
injury might be intimidated by the prospect of suing the Federal Government for
damages.
                            APPENDIX A

                                  MEODOLOY


To gather information for this report , we spoke with representatives of the following
offces and organizations: Senator Hank Brown (R- CO); Senator Tom Harkin (D- IA);
Senator Orrn Hatch (R- UT); Senator Edward Kennedy (D-MA); Representative
Barney Frank (D- MA);  Representative Nancy Johnson (R- Cf); Representative Ron
Wyden (D- OR); Minority Counsel , House Energy and Commerce Committee; the
General Accounting Offce; the U. S. Department of Justice; the Bureau of Health
Care Delivery and Assistance; the National Association of Community Health Centers;
the New England Community Health Center Association; the Northwest Regional
Primary Care Association; the Connecticut Primary Care Association; the Rhode
Island Primary Care Association; the Utah Primary Care Association; the Virginia
Primary Care Association; the American Insurance Association; and the Children
Defense Fund. We reviewed published reports and proposed legislation from these
offices.

We also reviewed preliminary results of a June 1991 survey of all 330- grant   recipients
that was conducted as part of the Offce of Inspector General study: "The Perinatal
Servce Capacity of the Community Health Centers " (OEI- Ol- 90- 02330). We received
an 84 percent response rate, representing centers in every HHS region , and in every
state and territory in which the Public Health Servce funds centers , with the
exceptions of the District of Columbia and the U. S. Virgin Islands. Two OIG
inspection reports on perinatal services at urban and rural centers are forthcoming in
winter 1991- 92.
                                  APPENDIX
               RERTS ON MEICAL MARACfCE
                   EXERICE AT
                                               PRE
                                         COMM HETI
                                                   AN

The Medical Malpractice Claims Experience of Community and Migrant Health Centers:

A Comparative StUy

National Association of Community and Migrant Health Centers , Washington , D.

February 1986.



Claims of Medical Injury, Filed under the Federal Tort Claims Act against the Indian
Health Service and the National Health Service Corps, between FY 1980 and FY 1986
Health Resources and Servces Administration , Rockvlle , MD , February 1987.

Rik Financing Alternatives StUy

National Association of Community and Migrant Health Centers , Washington , D.

June 1 , 1987.



 Obstetrical Care for Low- Income Women: The Effects of Medical Malpractice on
Community Health Centers       Medical Professional Liabilty and the Delivery of
                                  " in

Obstetrcal Care
Dana Hughes , Sara Rosenbaum , David Smith , and Cynthia Fader
Institute of Medicine , Washington, D.       , 1989.


Report on Malpractice

Rhode Island Health Center Association , March 1989.

Review of Legal Resolution Mechanisms for Claims against State and Local   Public
Employees

Children s Defense Fund , Washington , D.         , July 1989.


Statement on Statewide Malpractice Insurance Policy
Virginia Primary Care Association ,      1991.


Statement on Utah Community Health Center Malpractice Infonnation
Association for Utah Community Health ,          1991.


The Malpractice Insurance Question for the Community Health Cellers   of Connecticut
Robert S. Burke , available from the Connecticut Primary Care Association , May 1991.

Medical Malpractice: Data on Claims Needed to Evaluate Health Cellers I11UrallCe
Alternatives      (HRD- 91- 98)
       S. General Accounting Office , May 1991.
Statement of Thomas Trompeter, Executive Director, Northwest Regional Prmary Care
Association, before the House Judiciary Subcommittee on Administrative Law and
Governmental Relations
July 17 , 1991.



Community-Based Experience with the Federal Tort Claims Act and Malpractice (Draft)
David Smith ,Donna Denno , Dana Hughes , Bureau of Health Care Delivery and
Assistance; Sara Rosenbaum , Children s Defense Fund
                                         APPENDIX
                                                               NOTE

1. The average annual   field strength of federally employed corps providers fell from
   696 in 1980 to 412 in 1986. 
Claims of Medical Injury, Filed under the Federal Tort
Claims Act against the Indian Health Service and the National Health Service Corps,
between FY 1980 and FY              1986; Health Resources and Servces Administration
(HRSA), p. 43. A small percentage of corps providers are stil employed , paid , and
insured by the Federal government because of special circumstances. These include
the providers '          original employment status , and specific center difficulties in provider
recruitment.

                        Community Health Centers Mothers, Infants, and
2. National Association of
Community and Migrant Health Centers 1989; p. 9.

3. General Accounting Office                   Medical Malpractice: Data on Claims Needed to
Evaluate Health Centers '           Insurance Alternatives 
 (HRD- 91- 98), May 1991 , p. 1.
4. Survey of Perinatal Services Office of Inspector General , June 1991.
Significant " responses are a combination of " Moderate " and " Substantial" responses.
Numbers indicate the percentage of responding Section 330 grantees. Ten urban and
45 rural centers reported that they have discontinued or omitted obstetrical servces
for other reasons.


5. Institute of Medicine            Medical Professional Liabilty and the Delivery of Obstetrical
Care , 1989.

6. This is the average adjusted loss ratio for all medical malpractice carriers for 1990.

                                   Association.
Best s Insurance Management Reports " A. M. Best Company; obtained through the
American Insurance

7. Although insurance     companies view community health center patients as medically
high risk , these clients may in fact be less likely than private- practice patients to bring
suit in case of injury. The 1987 HRSA report notes that " the socio-economic and
educational levels of patients served by community health centers. . . may constitute
barriers to awareness that the care provided or the outcome achieved does not meet
acceptable medical standards. Reduced access to alternative sources of care may also
mitigate against aggressive redress of injury. " Moreover , strict Federal risk-
management and community involvement requirements may promote more positive
patient- doctor relationships. "The sense of community ownership, " one study noted
 has made suits less likely " (Robert S. Burke The Malpractice Insurance Question for
the Community Health Centers of Connecticut 1991 , p. 20).



                                                               C-
8. All 17 centers in Virginia  formed a risk purchase group in 1984   to obtain insurance
at reduced rates (see p. 7 of this report).
9. Tilinghast recommended that the National Association of Community Health
Centers establish an insurance risk- purchasing group, and that it evaluate the
feasibilty of establishing an insurance risk-retention group at some future point.
10. In the remaining 16 percent of cases ,   either the claim was stil pending or no
record of the claim could be found.


11. The authors recommended extension of coverage under the Federal Tort Claims
Act to all center obstetrical health care providers (not only federally employed
National Health Servce Corps members).
12. Senator Hatch' s   and Senator Kennedy s offces have discussed plans for legislation
that would build upon the current Hatch and Brown bils.

13. Representative   Nancy Johnson (R- Cf)    has introduced a similar bil (H. R.   1565).

14. Daniel Hawkins , Director of Policy Analysis , NACHC; Letter to Congressman
Ron Wyden , April 26 , 1991.

15. Sara Rosenbaum , Director , Health Division, Children s Defense Fund; Testimony
before the U. S. House Small Business Subcommittee on Regulation , Business
Opportunities , and Energy, October 12 , 1989. The Children s Defense Fund has
conducted a survey of 33 State policies regarding the liabilty of State-employed
medical providers. Thirty-one of the 33 States cover State-employed medical
providers under their respective State tort claims acts.
16. Stuart Gerson , Assistant Attorney General, U. S. Department of Justice , Civil
Division , Testimony before the U. S. House Judiciary Subcommittee on Administrative
Law and Governmental Relations , July 17 , 1991.




                                          C - 2

